                  Parallel Tracks?
         Lessons from the Railroad Industry




                             August 13, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-12-014
U.S. Postal Service Office of Inspector General                                August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                           RARC-WP-12-014




                               Parallel Tracks?
                      Lessons from the Railroad Industry


                                      Executive Summary

The Postal Service is currently facing a financial crisis. The combination of the great
recession and increased competition from electronic diversion has created the “perfect
storm” of rapidly declining mail volumes. Despite the fact the Postal Service has
undergone some substantial cost cutting and some new product innovation, neither
have been enough to counteract the falling revenues that stem from the huge volume
loss. While some mail volume appears to be returning as the economy improves, some
of the mail volume, especially high contribution First-Class Mail volume, faces a likely
permanent loss to electronic diversion.

Although severe, the Postal Service’s predicament does not seem to be entirely unique.
There are many parallels to the rail industry, which suffered a significant loss of market
share to the trucking industry in the 1950s, while it was burdened with an overbuilt
network. A comparison of the two industries could be useful in illuminating today’s
postal predicament.

The Office of Inspector General asked Christensen Associates, an economic consulting
firm with expertise in regulated industries that have faced disruptive technologies, to
provide a historical perspective of the rail industry and to co-author a paper that
compares the two industries.

The key findings of the paper are

       The freight rail industry’s recovery does not provide an exact blueprint for the
        postal industry’s recovery, but the comparison of the two industries provides
        some interesting insights into the prioritization of recovery efforts.

       It took over 50 years to develop and implement reform that resulted in a
        financially viable freight rail industry.

       Freight rail reform was not successful until it recognized the industry as being in
        crisis, and focused on restoring railroads’ financial health. The means were
        sometimes unpopular and challenging, and they included spinning off the
        obligation to provide passenger rail service to the newly formed government-
        owned corporation, Amtrak.

       There were three critical, interrelated components that allowed freight rail to be
        financially viable: 1) productivity improvement, 2) revenue generation, and 3) cost
        containment. None of the three would have been successful in isolation.


                                                      i
U.S. Postal Service Office of Inspector General                                  August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                             RARC-WP-12-014



        However, it was the strength of productivity gains that allowed rail recovery to be
        a story of shared gain, as customers benefited through lower prices.

       Unlike the freight rail industry, the Postal Service does not have the same
        potential for rapid productivity improvement under the Postal Service’s present
        service obligations and current network structure. Therefore, Postal Service
        recovery will be more likely a story of shared pain than shared gain.

       It is unlikely that the Postal Service will benefit from something akin to the
        increased demand for low-sulfur coal that boosted revenue for freight rail. It is
        difficult to imagine a market disruption that would lead to a dramatic long-term
        increase in demand for hard copy mail, particularly the First-Class Mail that
        traditionally bore the bulk of the Postal Service’s institutional costs.

       While it is possible that in the future, the Postal Service will offer new ancillary
        and nonpostal products with considerable revenues, the Postal Service is
        unlikely to benefit from significant new sources of revenue for several years.

       The first and foremost element of postal recovery needs to be cost containment
        — addressing the retiree prefunding issue and rightsizing the network.

       It is unlikely that the Postal Service and its stakeholders can wait over 50 years
        for a full recovery. The prioritization of restructuring and speed of recovery are of
        utmost importance to restore the Postal Service’s critical role in communications
        and commerce.




                                                      ii
U.S. Postal Service Office of Inspector General                                                                 August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                            RARC-WP-12-014



                                                 Table of Contents

Introduction ..................................................................................................................... 1 

Background ..................................................................................................................... 2 
          The Railroad Industry ........................................................................................... 2 
          The Postal Service ............................................................................................... 4 

Parallel Problems ............................................................................................................ 6 
          Disruptive Technologies Drove Market Share Loss .............................................. 8 
          Regulatory Restrictions Limited Revenue Generation ........................................ 10 
          Regulatory Controls Limited Ability to Adapt to Changing Market
          Conditions .......................................................................................................... 12 
          Inability to Adapt to Market Conditions Led to Huge Financial
          Losses ................................................................................................................ 13 

Parallel Solutions .......................................................................................................... 15 

Conclusion .................................................................................................................... 20 




                                                                 iii
U.S. Postal Service Office of Inspector General                                                        August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                   RARC-WP-12-014



                                                     Tables

Table 1           Parallel Problems .................................................................................... 7 

Table 2           Parallel Solutions .................................................................................. 16 


                                                    Figures

Figure 1          Index of Railroad Freight and Passenger Traffic (1 = 1910).................... 8 

Figure 2          Volume Shares of Freight Traffic by Mode .............................................. 9 

Figure 3          First-Class Mail, Standard Mail, and Total Mail Volume .......................... 9 

Figure 4          Average Annual Growth in Inflation and Railroad Operating
                  Revenue and Expense .......................................................................... 14 

Figure 5          Average Annual Growth Rates in Inflation and Postal
                  Operating Revenues and Operating Expenses ..................................... 15 


                                                Appendices

Appendix A        History of the Railroad Industry ............................................................. 23 

Appendix B        Common Carrier and Universal Service Obligations ............................. 29 




                                                          iv
U.S. Postal Service Office of Inspector General                                                   August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                              RARC-WP-12-014



         Parallel Tracks? Learned from the Railroad Industry


Introduction
The U.S. Postal Service is currently facing the most significant financial challenge since
its establishment as an independent agency by the Postal Reorganization Act of 1970
(PRA). The current crisis results largely from a dramatic decrease in mail volume and
revenue. Since a substantial portion of the Postal Service’s cost is fixed with respect to
mail volume, the Postal Service has incurred losses despite significant workforce
reductions and other cost-cutting efforts. While some of the mail volume decline reflects
the recent economic recession, much of the mail volume loss likely reflects structural
changes in communications markets that were caused by improvements in information
technologies. At the very least, the Postal Service faces a more competitive landscape
for its services.

U.S. railroads spent much of the mid-20th century in states of financial crisis as rapid
development of highway transportation and commercial aviation led to sizeable losses
of freight market share to over-the-road trucking and of passenger volumes to the
automobile and airlines. While the competitive threat and deteriorating financial
conditions were immediately recognized, it took three decades and several rounds of
piecemeal legislative efforts before comprehensive reform legislation — the Staggers
Rail Act of 1980 (the Staggers Act) — was enacted, and for the railroad industry to stop
the financial bleeding. It has taken nearly three more decades after the Staggers Act for
the railroad industry to regain its financial health.

The freight railroad industry’s lengthy effort to gain control of the situation demonstrates
that making structural changes in the industry, such as consolidating industry assets,
shedding track and routes, and reducing employment, does not happen overnight.
Furthermore, political and regulatory factors restricted the ability of the freight rail
industry to get control of the situation.

This paper examines parallels between the railroad industry as it moved from crisis to
recovery and the Postal Service’s current state of affairs. The objective of these
investigations is to look for insights that may help the Postal Service and other
stakeholders manage, and perhaps shorten, the road from crisis to recovery.1




1
  David Levy and Matthew Field have also compared the Postal Service and the railroads, arriving at “lessons for
revitalizing the Postal Service.” See David M. Levy and Matthew D. Field, “The United States Postal Service Business
Model: Lessons from the American Railroad Industry,” in Reinventing the Postal Sector in an Electronic Age, eds.
Michael A. Crew and Paul R. Kleindorfer (Cheltenham, UK and Northampton, MA: Edward Elgar, 2011), pp 306-318.


                                                         1
U.S. Postal Service Office of Inspector General                                                      August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                 RARC-WP-12-014


Background

The Railroad Industry

Since their genesis in the early 1800s, railroads have been central to America’s social
and economic development.2 Prior to the railroads, economic geography reflected the
high cost of surface transportation, with economic activity centered on natural ports and
other locations with access to navigable waterways. Railroads greatly reduced the cost
and increased the speed of ground transportation and expanded rapidly during the
19th century.

In the absence of other modes of mechanized ground transportation, and given railroad
cost structures that restricted entry of competitors, railroads faced little competition
across much of the nation’s geography. Consequently, the railroads exercised
considerable market power. This led to concerns that railroads charged unfairly high
(monopolistic) prices, particularly to captive shippers served by only one railroad. The
railroads also engaged in price discrimination, charging higher rates to captive shippers
and lower rates to shippers with rail or water alternatives. The railroads sometimes
practiced price discrimination by giving larger shippers rebates not available to the
smaller shippers.3

Shippers and the general public resented the railroads’ pricing practices. Agrarian
interests known as the Granger Movement, resulted in Midwestern states passing
legislation to regulate the railroads by establishing maximum rates and outlawing some
forms of price discrimination. Between 1871 and 1874, Illinois, Iowa, Wisconsin, and
Minnesota enacted legislation regulating the railroads. Between 1875 and 1878, the
“Granger laws” were repealed or weakened, but these states kept some regulatory
legislation and, by 1890, 34 states had passed some railroad regulation laws.4

 In 1886, the U.S. Supreme Court ruled in Wabash v. Illinois that the federal
government, rather than the states, has the authority to regulate railroads engaged in
interstate commerce.5 The Wabash decision provided the impetus for the Interstate
Commerce Act of 1887 (the Interstate Commerce Act),6 which established the Interstate
Commerce Commission (ICC) to oversee the railroads. Thus, railroads became the first
major U.S. industry to be subject to economic regulation.7

Under the Interstate Commerce Act and subsequent amendments, the ICC eventually
regulated maximum and minimum rail rates, as well as entry, exit, and abandonment of

2
  A more detailed history of the rail industry can be found in Appendix A.
3
  See, e.g., John F. Stover, American Railroads, Second Edition, (Chicago: University of Chicago Press, 1997)
pp. 116-117 and Ross M. Robertson, History of the American Economy, Third Edition (New York: Harcourt Brace
Javonovich, 1973) pp. 281-282.
4
  Ross M. Robertson, History of the American Economy, pp. 284-285.
5
  Wasbash, St. L. & P.R.Co v. Illinois, 118 U.S. 557, 577, Sup. Ct. 4, 30 L. ed. 244 (1886).
6
  Interstate Commerce Act of 1887, ch. 104, 24 Stat. 379, approved 1887-02-04.
7
  Clyde Aitchison, “The Evolution of the Interstate Commerce Act: 1887-1937,” George Washington Law Review 5
(1936-1937): pp. 289, 300, citing Wabash, St. L. & P. R. Co. v. Illinois, 118 U. S. 557, 7 Sup. Ct. 4, 30 L. ed. 244
(1886).


                                                           2
U.S. Postal Service Office of Inspector General                                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                  RARC-WP-12-014


rail lines. Railroads were not allowed to engage in some forms of price discrimination,
such as charging differential rates based on shipper size or for high-density versus low-
density routes. However, rates could vary by commodity. Rate differences between
commodities reflected “value of service” principles, under which rates and markups for
high-valued shipments such as manufactured goods were high, while rates for
agricultural products and other bulk commodities were low. Common carrier obligations
and restrictions on the ability of railroad operators to stop serving markets ensured the
provision of services to small shippers and rural areas.8

The railroad industry's golden age as the dominant mode of overland transportation
ended early in the 20th century. Mass production of automobiles led to declines in rail
passenger traffic as early as the 1920s. With the onset of the Great Depression,
railroads faced increased financial pressures as the economic collapse caused both
freight and passenger traffic to plummet. Furthermore, the railroads faced increasing
competition from a rapidly growing, publicly funded network of paved highways. Many
railroads went bankrupt or became distressed and were purchased by stronger
companies.

World War II-related rail demand traffic gave the railroads a temporary boost, but it was
insufficient to resolve the railroads’ financial difficulties. Through the 1950s and 1960s,
competition from government-funded construction of the interstate highway system and
commercial aviation intensified as railroad finances worsened and the rail network
deteriorated.

A presidential commission had identified the regulatory system as imposing major costs
on railroads and shippers in its 1955 Weeks Report9 but the regulatory reform process
was slow. Initial efforts in the late 1960s and early 1970s focused on restructuring
bankrupt railroads and relieving railroads of obligations to provide passenger service.10
The Railroad Revitalization and Regulatory Reform Act, called the “4R” Act of 1976,
took initial steps toward deregulating railroad pricing by allowing some negotiated
contracts between railroads and shippers and by allowing categories of traffic to be
exempted from regulation.11 The Staggers Act12 completed the reform process by
generally allowing rail rates to be set according to market demands, streamlining exit
(abandonment) procedures, and making the financial health of the industry a central
focus of remaining regulation. Today, the rail industry’s future appears bright as
significant private investment in modernization, rising fuel costs, and labor cost
advantages are giving rail significant advantages over the trucking industry.




8
  Interstate Commerce Act of 1887, ch. 104, 24 Stat. 379, approved 1887-02-04.
9
  Presidential Advisory Committee on Transport Policy and Organization, Revision of Federal Transportation Policy
(Washington, DC: U.S. Government Printing Office, 1955).
10
   Appendix B gives a detailed description of the common carrier obligations of the rail industry and the elimination of
the passenger service obligation.
11
   Railroad Revitalization and Regulatory Reform Act, Public Law 94-210, 90 Stat. 31, 1976.
12
   Staggers Rail Act of 1980, Public Law 96-448, 94 Stat. 1895.


                                                           3
U.S. Postal Service Office of Inspector General                                                August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                           RARC-WP-12-014


The Postal Service

The Postal Service’s roots date back to colonial times. A centralized system of post
roads and post offices was developed during the 18th century. After independence from
Great Britain, responsibility for the postal system was vested with the United States
government. Congress established the Post Office Department as an executive branch
cabinet department in 1872.13

The modern Postal Service’s product offerings and service obligations reflect several
rounds of service expansion. Originally, the Post Office only delivered mail to and from
its own facilities. In 1863, it began providing free city delivery with payment of postage.
In 1896, the Post Office inaugurated a system of rural free delivery to provide service to
the most isolated communities. The range of mail services offered by the Post Office
has gradually expanded as well. Magazines and pamphlets were formally admitted to
the mail in 1794, but only when they could be transported conveniently. Classes of mail
were formalized in 1863 — First-Class Mail included letters, Second-Class (now
Periodicals) covered publications issued at regular intervals, and Third-Class (now
Standard Mail) included all other mailable materials. Parcel Post service was
inaugurated in 1913.14

By the mid-1960s, the Post Office was in financial and operational trouble. Postal rates
bore little relationship to costs, and substantial appropriations were needed to cover the
department’s deficits. Meanwhile, growing mail volume was overwhelming postal
operations, which still relied primarily on manual processing.15 The PRA reconstituted
the Post Office as the United States Postal Service, vesting operational responsibility
with the Postal Service’s management and Board of Governors rather than with
Congress. 16 It established a system of collective bargaining with postal unions. Finally,
the PRA mandated “that total estimated income and appropriations should equal as
nearly as practicable total estimated costs.”17

The PRA established a “cost of service” postal ratemaking system, whereby the Postal
Service’s governors determined rates, subject to regulation by the independent Postal
Rate Commission. Under the PRA, postal ratemaking effectively followed a two-step
process. First, the estimated total cost of the Postal Service determined a “revenue
requirement” to be recovered through postal rates and (to a much smaller extent)
appropriations. Second, a set of rates would be determined that would approximately
generate sufficient revenues while observing ratemaking policies set forth in the PRA.18




13
   Postal Service Publication 100, “The United States Postal Service: An American History 1775-2006,”
http://about.usps.com/publications/pub100.pdf.
14
   Ibid.
15
   Ibid.
16
   Public Law 91-375, 1970.
17
   Quote from the Postal Rate Commission Opinion and Recommended Decision, Docket No. R71-1, p. 3.
18
   Public Law 91-375, 1970.


                                                       4
U.S. Postal Service Office of Inspector General                                                     August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                RARC-WP-12-014


After ensuring break-even revenues, the foremost considerations in PRA ratemaking
were a requirement that postal rates cover “attributable” costs while value of service
principles were used, among other things, to assign responsibility for covering fixed
costs of the Postal Service to classes of mail.19 Under PRA ratemaking, markups on
high value-of-service First-Class Mail covered the bulk of the Postal Service’s fixed
costs.20

During the early PRA period, mail volume continued to grow; total mail volume doubled
between 1970 and 1990, and peak volume in 2006 was 2.5 times the 1970 level.21
Population growth and associated household and business formation also triggered
great expansion in the Postal Service’s delivery network. The Postal Service underwent
a major operational transition as its mail processing operations were increasingly
automated. The Postal Service also effectively outsourced a considerable amount of
mail processing and transportation via worksharing discounts offered to business
mailers.22

The PRA ratemaking system succeeded in allowing the Postal Service to break even
almost entirely on revenues from postage and related fees, but it led to a number of
stakeholder concerns that drove a regulatory reform effort. The cost-of-service
ratemaking system was viewed as providing insufficient incentives for the Postal
Service to pursue productivity improvements. Mailers found the irregular timing and size
of rate increases disruptive and were concerned about the potential for rate shocks for
products priced close to cost floors.23 Efforts to extend the Postal Service’s business
model beyond traditional mail services had little success, while diversion of mail
volumes to electronic alternatives was a major threat. Competitors feared that the
Postal Service would use its monopoly revenues and status as a government entity to
provide unfair advantages to its own competitive products.24 The Postal Accountability
and Enhancement Act of 2006 (PAEA) implemented major changes to the postal
regulatory system. Among its chief features, the PRA cost-of-service ratemaking system
was replaced with a system of price caps based on the Consumer Price Index (CPI) for
market-dominant products,25 while the regulation that applied to pricing competitive
products was greatly reduced.26 The Postal Service was allowed, but not required, to

19
   Ibid.
20
   For example, the recommended rates for Docket No. R2006-1, the last PRA rate case, assigned 55 percent of
“contribution to institutional cost” to the First-Class Letters and Sealed Parcels subclass. Postal Rate Commission
Opinion and Recommended Decision, Docket No. R2006-1, Vol. 1, 5228 (p. 167); Vol. 2, Appendix G.
21
   Data from 1970 to 2005: Docket No. R2006-1, USPS-LR-74; Data from 2006 to 2011 U.S. Postal Service Revenue,
Pieces, and Volume (RPW) Reports.
22
   Presorting services offered by consolidators and other mailing service providers substitute for Postal Service
sorting operations. In some cases, worksharing uses the same general technology as Postal Service operations,
such as OCR and barcode sorters; in other cases, mailers or their agents can incorporate “worksharing” activities into
the process of producing mailpieces by (say) printing mailpieces in sort order. Similarly, “drop shipments” normally
involve mailers providing transportation and material handling services that the Postal Service would provide for non-
workshared mail.
23
   Transcript from 2002 Rate Making Summit cosponsored by the U.S. Postal Service and Postal Rate Commission at
http://www.prc.gov/prc-docs/library/archived/day1-transcript.pdf.
24
   Embracing the Future, Report of the President’s Commission on the United States Postal Service, July 31, 2003,
p. 67.
25
   Public Law 109-435, 120 Stat. 3202, 2006.
26
   Public Law 109-435, 120 Stat. 3205 – 3207, 2006.


                                                          5
U.S. Postal Service Office of Inspector General                                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                  RARC-WP-12-014


earn and retain a profit.27 The Postal Service was prohibited from offering new
nonpostal products.28 While the PAEA reversed the 2003 law that required the Postal
Service to pay for military service and put money into an escrow account starting in
2006,29 it required the Postal Service to make large payments to the U.S. Treasury to
prefund its retiree health benefits.30

The financial crisis of 2007-2008 and the subsequent severe economic recession led to
a sharp decline in mail volume, and the Postal Service rapidly swung from moderate
surpluses at the end of the PRA period to large losses.31 The Postal Service’s losses
have persisted, as mail volume — particularly for First-Class Mail — has not recovered.


Parallel Problems
As can be gleaned from this brief history, the Postal Service currently faces a crisis
similar to what the rail industry experienced several decades ago. Table 1 describes
some of the parallels between the two crises.

Disruptive Technologies Drove Market Share Loss

Both rail and the Postal Service suffered a dramatic                          Both rail and the Postal
market share loss due to a decline in the economy                             Service suffered a dramatic
and increased competition from disruptive                                     market share loss due to a
technologies —highway systems for the railroads,                              decline in the economy and
electronic communications for the Postal Service.                             increased competition from
                                                                              disruptive technologies.
In the 1930s, most railroads faced financial pressure
from the Great Depression, causing them to go into receivership or be purchased by
stronger companies, which resulted in an overall decline in the level of demand.




27
   Public Law 109-435, 120 Stat. 3201, 2006.
28
   Public Law 109-435, 120 Stat. 3200, 2006.
29
   Public Law 109-435, 120 Stat. 3253, 2006.
30
   The Postal Civil Service Retirement System Funding Reform Act of 2003, Public Law 108-18 was passed in
response to a finding that the Postal Service was paying too much into its CSRS Retirement Account. Public Law
108-18 changed the payment stream but dictated that, starting in 2006, the Postal Service must put the “savings” into
an escrow account, and may not spend that money without the approval of Congress. Public Law 108-18 also
transferred from the Treasury to the Postal Service the financial responsibility of retirement benefits earned by postal
employees when they were members of the military, a $27-billion obligation. The PAEA reversed the decision on the
military obligation and eliminated the escrow account. See Congressional Research Service, Pension Issues Cloud
Postal Reform Debate, Order Code RL32346, January 14, 2005.
31
   U.S. Postal Service, “2011 Annual Report to Congress and Comprehensive Statement on Postal Operations -
Delivering the new reality.” http://about.usps.com/publications/annual-report-comprehensive-statement-
2011/html/welcome.htm.


                                                           6
U.S. Postal Service Office of Inspector General                                                            August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                       RARC-WP-12-014

                                              Table 1: Parallel Problems
                      Parallel                      Rail (1930 to Staggers)                 Postal Service (Now)
  Market Share        Both suffered a               Great Depression led to volume          Recession caused large
  Loss                dramatic market share         loss; failed to recapture the           decline in volume. Unlikely
                      loss due to the               market share due to increased           to recoup all lost volume as
                      recession/depression          competition from government-            some communications have
                      and competition from          funded highway expansion and            permanently migrated to
                      disruptive technologies.      the airline industry.                   electronic alternatives.
  Product Mix         Both depended on              Higher contribution merchandise         Electronic diversion drove a
  Changes             monopoly profits from         volume declined as mandated             sharp decline in First-Class
                      “high-valued” services        prices not competitive. Railroad        Mail, the Postal Service’s
                      to fund service               product mix retrenched around           monopoly product, which is
                      obligations, such as          where railroads retained                the biggest contributor to
                      service to rural              significant cost and/or                 cover “fixed” costs related
                      communities, and              operational advantages such as          to the universal service
                      service features such as      bulk commodity shipments.               organization.
                      uniform rates.                Passenger volume declined.
  Restrictions on     Both industries have          ICC set maximum and minimum             The Postal Service has
  Pricing             been subjected to price       rates for rail shipments that were      price cap restrictions on 86
  Flexibility         regulation that limited       unrelated to costs or demand.           percent of its revenue. The
                      pricing flexibility and       Regulation kept similar rates for       Postal Service has limited
                      ability to raise sufficient   routes between two points, even         ability to engage in
                      revenues.                     when costs differed.                    contracts with customers.
  Network             Both exhibit “economies       As volume fell, unit costs              The combination of
  Related             of density.” Increased        increased. In response, the             declining volume and a
  Economies of        (decreased) volume            railroads began to consolidate          growing network of delivery
  Density             relative to network size      and drop unprofitable lines;            points means that unit costs
                      tends to reduce               however, the process was often          for the remaining mail
                      (increase) unit costs.        slow and difficult.                     volume are growing.
  Limited             Both face resistance to       Abandonment of lines was slow           Achieved only limited
  Network             rationalizing the             and faced political resistance.         network rationalization.
  Rationalization     network.                      ICC took over a year to rule on         Faces substantial
                                                    abandonments.                           resistance to closing
                                                                                            facilities.
  High Labor          Both had fairly high          Prior to deregulation, labor was        Delivery is labor intensive.
  Costs               labor costs.                  50 percent of its costs.                Labor makes up
                                                                                            approximately 80 percent of
                                                                                            total costs.
  Universal           Both have obligations         Common carrier obligations and          USO requirements limit
  Service             that limit ability to cut     regulatory restrictions limited         ability to reduce costs
  Obligations         costs.                        efforts to reduce capacity.             (deliver to every delivery
  and Common                                        Passenger service obligation            point, 6 days a week as
  Carrier                                           became costly as passenger              practicable).
  Obligations                                       volume declined.
  Deferred            Financial distress            Lacked the funds to properly            Has an aged fleet of
  Maintenance         limited ability to make       maintain their tracks – resulting       delivery vehicles, many
                                                                                 *
                      investments, even for         in less efficient operations.           reaching the end of their
                                                                                                                       †
                      required maintenance.                                                 expected operational life.
  Little Incentive    Regulation limited or         Regulation prohibited charging          Until 2006, break-even
  for Innovation      prevented both                lower rates for “unit trains,” highly   requirement lacked
                      industries from moving        efficient sets of 50 or more cars       incentive to innovate.
                      toward innovative             to move freight between two             Attempts to innovate and
                      solutions to gain market      points, delaying rail from              move beyond hard-copy
                      share and lower costs.        introducing this innovation.            mail are often met with
                                                                                            resistance.
  *
      By 1976, more than 47,000 miles of tracks had to be operated at reduced speeds because of unsafe
      conditions.
  †
      U.S. Government Accountability Office, Strategy Needed to Address Aging Delivery Fleet, Report
      No. GAO-11-386, May 2011, http://www.gao.gov/assets/320/318032.pdf.




                                                              7
U.S. Postal Service Office of Inspector General                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                  RARC-WP-12-014


Despite a spike in demand due to World War II mobilization activities and gasoline
rationing, the railroads failed to recapture market share because of increased
competition from the publicly funded highway system and increased production and use
of the automobile, the bus, long-distance trucking, and the airplane.

Figure 1 provides a view of railroad freight and passenger traffic over most of the
20th century. As can be seen, the competition affected passenger rail more significantly
than freight rail. While passenger revenues had been one-fourth of rail revenues in
1900, by 1970, they had fallen to 3 percent.

                  Figure 1: Index of Railroad Freight and Passenger Traffic (1 = 1910)




Source: Statistical Abstract of the United States, Various Years



Freight ton-miles rebounded during World War II and did not fall off as sharply as
passenger traffic, but traffic growth was weak over much of the postwar period prior to
the Staggers Act.

Figure 2 shows that railroad freight traffic largely shifted to trucks and, to some extent,
pipelines. The result was rapid growth of trucking while the railroads struggled.
Railroads had almost 70 percent of market share for freight transportation in 1945, while
trucking accounted for only 6 percent of the market. By 1985, the trucking market share
had risen to 25 percent while the railroads’ share plummeted to little more than a third of
the freight ton-miles. Since 1985, railroads have regained some market share such that
today, railroads account for about 40 percent of freight ton-miles and trucking
30 percent.




                                                          8
U.S. Postal Service Office of Inspector General                                                                                 August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                                            RARC-WP-12-014

                              Figure 2: Volume Shares of Freight Traffic by Mode
                                          (percent of total ton-miles)

            100%

                                                                           Pipe
              80%

                                                                           Water
              60%

                                                                        Trucks
              40%


              20%                                                        Trains


               0%
                       1940

                              1945

                                       1950

                                                1955

                                                       1960

                                                                1965

                                                                         1970

                                                                                1975

                                                                                         1980

                                                                                                 1985

                                                                                                          1990

                                                                                                                   1995

                                                                                                                           2000

                                                                                                                                  2005
Source: National Transportation Statistics, Table 1-46b, various years


The parallel for the Postal Service is the great recession and the development of
electronic communication technologies. As in the rail industry, the new competition
affected the various classes of mail differently. Figure 3 shows the volumes of First-
Class Mail, Standard Mail (formerly called Third-Class Mail), and total mail.

                       Figure 3: First-Class Mail, Standard Mail, and Total Mail Volume
                                                   (millions)

            250,000 
                                                                                                        Total  mail  volume 
                                                                                                        peaked in 2006



            200,000 




            150,000 
                                                                                                 First‐Class  Mail 
                                                                                                 peaked in 2000‐2001



            100,000 




             50,000 
                                                               Standard Mail  peaked  in 2007,
                                                               rapidly declined,  and  then  
                                                               began to rise again

                  ‐
                       1970          1975       1980          1985      1989           1994      1999            2004      2009
                                            First‐Class Mail           Standard Mail             Total Mail

Source:   Docket No. R2006-1, USPS-LR-74, for data from 1970 to 2005 and U.S. Postal Service Revenue, Pieces,
          and Volume (RPW) Reports for data from 2006 to 2011




                                                                       9
U.S. Postal Service Office of Inspector General                                                  August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                             RARC-WP-12-014


Between 1970 and 1990, total mail volume approximately doubled; however,
composition of mail volumes changed markedly. First-Class Mail pieces grew by about
3 percent per year and Third-Class Mail (Standard Mail)
increased by 6 percent per year. First-Class Mail             The decline in First-Class
volume peaked in 2000-2001 and total mail volume              Mail volume is significant
peaked in 2006, while Standard Mail volumes did not           because First-Class Mail
start to drop until the recent economic downturn in           has historically provided
2008. The change in product mix is significant, as First-     most of the contribution to
Class Mail has historically provided most of the              cover institutional costs.
contribution to cover institutional costs. On average, it takes approximately three pieces
of Standard Mail to make up for the lost contribution (profit) of one piece of First-Class
Mail. As First-Class Mail volumes have continued to decline, Standard Mail and other
                                   mail markups have not been sufficient to make up the
                                   lost contribution.
 While some of the mail
 volume may return as the        While some of the mail volume may return as the
 economy recovers, some          economy continues to recover, some of the volume —
 volume, especially First-       especially First-Class Mail volume — is most likely lost
 Class Mail volume, is most      permanently. Electronic diversion appears to have
 likely lost permanently.        reached a tipping point, fueled by a combination of the
                                 availability of higher quality Internet services and
increased willingness of consumers to conduct business by electronic communications.
In 2002, 75 percent of bill payments were made using the mail and only 17 percent
were made by electronic payment. By 2010, electronic methods accounted for 48
percent of bill payments, surpassing the mail share, which had fallen to 47 percent.
Similarly, an increasing number of bills and statements are being presented over the
Internet and less through mail, portending continued First-Class Mail volume losses.32

Regulatory Restrictions Limited Revenue Generation

As competition began to take market share, both the rail industry and the Postal Service
were limited in their ability to generate revenue. For the rail industry, the main problem
was that railroads were unable to offer competitive rates. The ICC set maximum and
minimum rates for rail shipments, which were often unrelated to costs or market
conditions. For instance, rates for bulk commodity movements with low perceived value
of service were kept low. Shipments of manufactured goods with high perceived value
of service, which paid higher rates and markups, provided disproportional contributions
to institutional costs of the rail network. However, this pricing structure caused the
higher-valued freight to be diverted to the highways first, rapidly undermining railroads’
finances. In addition, regulation generally kept similar rates for shipments between two




32
   U.S. Postal Service, The Household Diary Study: Mail Uses & Attitudes in FY 2010, Contract No. 102592-02-B-
15902, April 2011, http://about.usps.com/studying-americans-mail-use/household-diary/2010/fullreport-pdf/usps-hds-
fy10.pdf, p. 2.


                                                        10
U.S. Postal Service Office of Inspector General                                                   August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                              RARC-WP-12-014


points, even if railroads incurred much higher or lower costs for some shipments.33 In
addition, rate changes often entailed a long and burdensome process.

The Postal Service also faces restrictions in its price-setting process. From 1970 to
2006, the Postal Service was under a break-even requirement, which required it to set
rates so that revenues covered the cost of operations. While this regulation ensured that
the Postal Service would earn significant revenues to cover its costs, it also had
drawbacks. Rate cases were long, incentives to control costs were weak, and mailers
complained that they were often victims of unpredictable rate increases.

In response to these concerns, the PAEA abolished the PRA’s cost-of-service
ratemaking system, and instead instituted CPI-based price caps for market-dominant
products while largely reducing the regulation of competitive product pricing. Postal
Service rate increases could exceed the CPI caps under exigent circumstances with
advance approval by the Postal Regulatory Commission, though to date the Postal
Service has not yet successfully pursued an exigent rate increase.34

Price caps linked to the CPI may have been regarded as
                                                                    CPI deflation following
allowing the Postal Service sufficient rate flexibility based       the 2007-2008 financial
on past experience, given that prices for First-Class Mail          crisis left the Postal
have generally followed inflation. However, CPI deflation           Service unable to raise
following the 2007-2008 financial crisis left the Postal            market-dominant rates
Service unable to raise market-dominant rates under the             under the price cap
price caps. While the intent of the law was to give the
Postal Service pricing flexibility, the combination of the class-based price cap and
regulations on workshare discounts35 hinders the Postal Service’s flexibility to make
significant changes to its rate structure. This not only places some limitation on the
Postal Service’s ability to offer innovative pricing, such as prices based on the value of
the product, it also makes it difficult for the Postal Service to rebalance rates when
needed, such as raising the price of products that are not currently covering their costs.
However, some have argued that the Postal Service does not effectively use the pricing
flexibility it has to rebalance rates within the classes of mail to which the price caps
apply.

The Postal Service is also limited in its ability to generate revenue from new products
because it can only provide postal products, with the exception of a few grandfathered
products that were offered prior to 2006.


33
   For instance, multiple-carload shipments will tend to have lower marginal cost per ton-mile than single-carload
shipments, other things equal.
34
   The Postal Service requested an exigent rate increase in Postal Regulatory Commission Docket No. R2010-4. The
Postal Regulatory Commission found that the Postal Service had shown an exigency, but denied any rate increase
on the grounds that the Postal Service had not shown a sufficient causal nexus between the request and the volume
losses due to the recession.
35
   The PAEA requires that workshare discounts not exceed 100 percent of the cost savings, but allows for several
exceptions. See Public Law 109-435. December 2006. 120 Stat. 3204. The Postal Regulatory Commission also
believes that when possible, workshare discounts should not be less than 100 percent of the cost savings. See Postal
Regulatory Commission, Annual Compliance Determination, United States Postal Service Performance FY 2007,
March 27, 2008, pp. 66 and 97, http://www.prc.gov/Docs/59/59460/ACR2007Report.pdf.


                                                        11
U.S. Postal Service Office of Inspector General                                                        August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                   RARC-WP-12-014


Regulatory Controls Limited Ability to Adapt to Changing Market Conditions

In 1950, it was obvious that the railroad industry was in a challenging financial situation
and that the future looked worse. The industry responded through three related actions.
First, the industry consolidated as firms merged, were reclassified, or exited the industry
because of bankruptcy. Second, through consolidation and route abandonment, the
mileage of the railroad network shrank. Third, the industry aggressively reduced
employment. However, it took years for rail to be successful in each of these actions
due to regulatory constraints.

The obligation to provide passenger service was a key factor in the Class I36railroads’
deteriorating financial condition through the 1960s. Despite falling demand and
increasing operating deficits, railroads found it very difficult to get permission to
abandon unprofitable passenger services because the ICC only had the authority to
allow abandonment of the line, not services on the line.37

Common carrier obligations and regulatory restrictions on abandonment of rail lines
limited the industry’s efforts to reduce capacity in line with demand. Abandoning
unprofitable lines not only was met with political resistance, but was also a lengthy
process. In the 1960s, the ICC took 410 days on average to rule on abandonment
applications.

                              The Transportation Act of 1958 somewhat reduced the
     Overall, it took the     barriers to route abandonment, but network reduction via
     railroad industry more
                              abandonment was modest until the mid-1970s. In 1976,
     than 50 years to
     “rightsize.”
                              the 4R Act greatly reduced the regulatory barriers to route
                              abandonment. Consequently, from 1975 to 1990, there
was a rapid reduction of the railroad network as over 4,600 miles of road per year were
shed.38 In the 2000s, the extent of the rail network has been relatively stable; capacity
needs on high-traffic routes have led to modest increases in track mileage.39

Overall, it took the railroad industry more than 50 years,
until about 2000, to “rightsize” itself in response to                              The Postal Service faces
changing market conditions.40                                                       a variety of explicit and
                                                                                    implicit limitations on
The Postal Service also faces a variety of explicit and                             reducing portions of its
                                                                                    network.
implicit limitations on reducing portions of its network,41


36
   Class I railroads are large railroads as defined by operating revenue.
37
   See Appendix B for a more detailed discussion.
38
   Association of American Railroads, Railroad Ten-Year Trends, various years.
39
   Capacity has increased through other means than additional mileage, such as double-stacking. However, there is
some evidence that rail is now under-capacity. According to The Economist, due to the success of the rail industry,
capacity shortages have become a problem recently and will continue to get worse. The introduction of high-speed
passenger rail could cause even more problematic capacity issues. See The Economist, “High-speed Railroading,”
July 22, 2010, http://www.economist.com/node/16636101.
40
   This sentence is not meant to imply that the railroad industry achieved the optimal size, as it will need to continue
to adapt to changing market conditions. The sentence is meant to illustrate that rightsizing is a long and arduous
process.


                                                           12
U.S. Postal Service Office of Inspector General                                                      August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                 RARC-WP-12-014


which are often justified by its obligation to provide universal service. The Postal Service
may not close Post Offices solely for economic reasons, and is required to maintain 6-
day residential delivery.42 It also faces resistance to efforts to consolidate its mail
processing network.

Historically, the Postal Service has engaged in some consolidation of mail processing
and distribution operations prior to its recent broader effort to consolidate the mail
processing network.43 In particular, the Postal Service’s inventory of automated letter
and flat processing equipment was scaled for considerably higher volumes than
currently prevail. To some extent, the Postal Service has been able to maintain density
in some processing operations by using excess capacity to automate the processing of
some mail that would otherwise require manual handling. For instance, the number of
letters sorted to delivery point sequence using automated equipment in mail processing
plants has significantly increased from 2005 to 2010.44 However, reduced capacity
utilization leads to upward pressure on product costs as relatively fixed nonlabor costs
associated with plants and equipment must be spread over smaller mail volumes.

  The Postal Service has                 Overall, the Postal Service has experienced
  experienced relatively little          relatively little network consolidation and indeed
  network consolidation and has          has seen considerable growth in its delivery
  seen considerable growth in its        network. Consequently, the gains from density
  delivery network.                      economies in postal services have come primarily
                                         from increases in mail volumes until recent years.
This is in contrast to the railroad experience where density economies (and ultimately
density-driven productivity gains) resulted from both large increases in traffic volume
and large decreases in network size.

Inability to Adapt to Market Conditions Led to Huge Financial Losses

The financial impact of trucking competition on the railroads was severe. Rail volume
declines directly affected revenues, and railroads could not quickly make adjustments to
control costs. Because of value-of-service pricing, high-markup goods were particularly
vulnerable to diversion to highways, further undermining railroads’ revenue sufficiency.

As shown in Figure 4, between 1947 and 1960, real operating revenue decreased as
the result of stagnant rail volumes, and railroad expenses grew faster than revenues.
From 1960 to 1975, after volumes began increasing, the cost-revenue differential
became even greater. Not until after 1975 did the railroads turn the corner and the

41
   For example, a discussion of the hurdles the Postal Service faces when it attempts to cut retail costs is in U.S.
Postal Service Office of Inspector General, Barriers to Retail Optimization, Report No. RARC-WP-11-005, June 9,
2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-005.pdf.
42
   This requirement appears as a rider on annual appropriations bills.
43
   As of the writing of this paper, the broader mail processing network rationalization and associated service changes
are the subject of Postal Regulatory Commission Docket No. N2012-1.
44
   The percent of letters that were in delivery point sequence increased from 77 percent in 2005 to 99 percent in
2010. See 2005 and 2010 Comprehensive Statement of Postal Operations at, respectively,
http://about.usps.com/strategic-planning/cs05/welcome.htm and http://about.usps.com/strategic-
planning/cs10/CSPO__12_2010.pdf.


                                                          13
U.S. Postal Service Office of Inspector General                                                            August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                       RARC-WP-12-014


financial situation began to stabilize. The recovery of the industry occurred largely since
1985, as revenue growth outpaced expense growth by a full percentage point.

     Figure 4: Average Annual Growth in Inflation and Railroad Operating Revenue and Expense




Source: Association of American Railroads, Railroad Facts, 2009 Edition and Railroad Ten-Year Trends 2000-2009


Figure 5 compares growth rates in operating revenues to operating expenses for 5-year
periods for the Postal Service.45 This figure shows that the greatest financial
improvement occurred in the years immediately following the PRA, as break-even rates
from the PRA ratemaking system were implemented and the Postal Service enjoyed an
initial productivity boom from restructuring. Under cost-of-service ratemaking, operating
revenues and expenses broadly tracked each other over most of the PRA period;
growth rates of both declined in the lower-inflation economy of the later 1980s and
1990s. The 2005-2010 period shows that the price cap system decoupled revenues
from expenses, and operating revenues decreased on average by 0.9 percent per year,
on sharply lower demand, while expenses increased by 2 percent per year.46 From the
mid-1980s until 2005, the Postal Service had operating expenses largely in line with
operating revenues. However, the Postal Service has been experiencing significant
losses in recent years as expenses and revenues became unbalanced.47




45
   The data presented in Figure 5 do not include any public service or revenue forgone appropriations. Since 1983,
the Postal Service has not received any public service appropriation.
46
   A substantial amount of the growth in expenses 2005-2010 was from the increase in retiree health benefit
obligations. The net result of Public Law 109-435 was to add $6.8 billion dollars to this obligation in 2007. The net
result of Public Law 111-68 was a reduction of the obligation by $4.0 billion.
47
   While the retiree health benefit obligation is a significant part of the net loss, the Postal Service financial condition
deteriorated otherwise.


                                                             14
U.S. Postal Service Office of Inspector General                                                                August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                           RARC-WP-12-014

                        Figure 5: Average Annual Growth Rates in Inflation and
                          Postal Operating Revenues and Operating Expenses
             14.0%


             12.0%


             10.0%


              8.0%


              6.0%


              4.0%


              2.0%


              0.0%

                      1970-1975   1975-1980   1980-1985   1985-1990   1990-1995   1995-2000   2000-2005   2005-2010
             -2.0%

                                  Operating Revenues         Operating Expenses         Inflation


Source: U.S. Postal Service Annual Reports



Parallel Solutions
Regulatory reform of the railroad industry was not a quick process; instead, it took over
50 years. The railroad industry faced an extended period of crisis, and a number of
interim reforms, before the more comprehensive reforms in the Staggers Act were
passed. Ultimately, the Staggers Act recognized the
industry as being in crisis and focused on restoring        The Staggers Act
railroads’ financial health, even through means that may recognized the industry as
                                                            being in crisis, and focused
have been unpopular and challenging, such as relieving
                                                            on restoring railroads’
the railroads of their obligation to provide passenger      financial health.
service.

The post-Staggers Act freight rail industry is often considered a model of success for
transportation deregulation because both railroads and shippers were able to benefit
from rapid productivity gains. These gains allowed freight railroads to greatly improve
their financial positions while shippers could enjoy lower real (if not nominal) rail rates at
the same time. Railroads also benefited from market changes, such as the increased
demand for low-sulfur western coal, which were not anticipated in the regulatory reform.

But the freight railroad story is not necessarily the perfect blueprint for the Postal
Service. Table 2 lists some of the key elements of rail reform success and how those
same elements may apply to the Postal Service.




                                                              15
U.S. Postal Service Office of Inspector General                                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                  RARC-WP-12-014

                                         Table 2: Parallel Solutions
                      Rail – After Staggers                          Potential for the Postal Service
    Increased         Railroads are allowed to base their rates      While the Postal Service does have the
    Pricing           on market demand when sufficient               ability to enter into private contracts, it
    Flexibility       competition exists. Railroads can enter        could benefit from more pricing flexibility –
                      into confidential contracts.                   specifically innovative pricing that better
                                                                     captures the value of the mail and the
                                                                     network.
    Relaxed           The Staggers Act streamlined procedures        There is significant and effective resistance
    Restrictions      for abandoning or selling unneeded rail        to network rationalization efforts.
    on Network        lines. The number of miles of road served
    Rationalization   by the Class I railroads was cut by more
                      than half.
    Industry          Rail started with multiple railroads with      Postal Service is a monopoly. If anything, it
    Consolidation     duplicate service and was able to              has created more mail service providers as
                      consolidate. Class I railroads decreased       growth of workshare volumes has created
                      from 126 in 1950 to 7 in 2000.                 an industry of upstream competition to the
                                                                     Postal Service.
    Increased         An increase in traffic density was a key       Due to the growing delivery network and
    Traffic Density   factor in recovery. It was facilitated by      unlikely comeback of First-Class Mail, it is
    Facilitated       stronger, more efficient locomotives           unlikely the Postal Service will be able to
    Productivity      pulling heavier cars and longer trains         see large gains in density. Network
    Improvements      greater distances. Increase in demand for      rationalization will improve density and
                      low-sulfur coal and long-haul intermodal       productivity prior to delivery.
                      shipments also resulted in an increase in
                      density.
    Reduction in      It took until 1980 to see significant labor    There is potential for a reduction in labor
    Labor Costs       cost reductions. Even though employment        costs; however, the reduction would be
                      decreased by 87 percent as a result of         largely dependent on the Postal Service’s
                      industry consolidation, labor-saving           ability to rationalize its network and or
                      technological change, work rule changes,       change the delivery mode (i.e., move from
                      and operating efficiencies (including          house to curbside delivery). More flexibility
                      eliminating the caboose and the                in work rules could also lead to a reduction
                      introduction of unit trains), wage and         in labor costs.
                      benefit growth outpaced the rate of
                      employment reduction until 1980.
    Relaxation on     The Class I railroads were relieved of their   It is unlikely that the Postal Service will be
    Universal         passenger service obligations when             relieved of its USO, but it might benefit
    Service           Amtrak began operations in May 1971.           from a reevaluation of some of the
    Obligations                                                      requirements of USO.
    (USO) and
    Common
    Carrier
    Obligations
    Increased         Benefited from the increased demand for        Unlikely long-term increase in demand for
    Demand            low-sulfur coal. Lower prices from             hard-copy high-contribution mail services.
                      increase in productivity allowed additional    Some of the loss of First-Class Mail is most
                      gains in market share.                         likely permanent and it will be difficult for
                                                                     the Postal Service to make up this lost
                                                                     revenue through other hard-copy mail.




                                                         16
U.S. Postal Service Office of Inspector General                                                        August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                   RARC-WP-12-014


The recovery of the freight rail industry has been largely a productivity story, with
railroads experiencing rates of productivity growth much higher than the productivity
growth rate in the economy overall. Since 1950, Class I railroads’ total factor
productivity, a comprehensive measure of productivity that compares an index of output
                                   production to an index of all input usage, has grown by
  The recovery of the freight
  rail industry has been
                                   an average of 2.5 percent a year. The strongest
  largely a productivity story,    productivity growth for the railroads came after the
  with customers on average        regulatory reform of the 4R Act of 1976 and the
  sharing the benefit through      Staggers Rail Act of 1980.48 Railroad productivity
  lower prices.                    growth has come from technological change across all
                                   aspects of production (engines, cars, rails, track
maintenance, communications, etc.); density economies resulting from volume growth,
consolidation, and network rationalization; and managerial efficiencies resulting from
operational innovation, fewer work rules, lessening of other regulatory and political
constraints, and market-oriented management.49

A significant increase in traffic density was a strong component of the increase in
productivity. The increase in density was facilitated by stronger, more efficient
locomotives pulling heavier cars and longer trains greater distances. Compared to 1950,
the typical train goes twice as far, is 40 percent longer, and carries 2.5 times the freight
weight.50 The shifting mix of traffic toward low-sulfur coal and long-haul intermodal
shipments51 and the introduction of contract terms that promote efficient railroad
operations are also a large part of the density and productivity story.

As can be seen in Table 2, other factors also played a role in the recovery of the rail
industry, including increased pricing flexibility, the elimination of the obligation to provide
passenger rail service, and the ability to reduce labor costs. It is important to note that
all of the elements that led to the successful recovery         All of the elements that
of the freight rail industry are interrelated; none would       led to the successful
have been successful in isolation. For example, labor           recovery of the freight
cost reductions would have not been as significant              rail industry are inter-
without network rationalization and industry                    related; none could have
consolidation. And while pricing flexibility was                been successful in
important, it would not have been as successful without         isolation.
productivity gains that allowed for lower prices and




48
   Philip E. Schoech and Joseph A. Swanson, “Patterns of Productivity Growth for U.S. Class I Railroads: An
Examination of the Pre- and Post-Deregulation Determinants,” Christensen Associates Working Paper, November
2010, http://www.lrca.com/topics/Schoech_Swanson_Patterns_of_Productivity_Growth_for_US_Class_I_Railroads.pdf.
49
   B. Kelly Eakin, A. Thomas Bozzo, Mark E. Meitzen, and Philip E. Schoech, “Railroad Performance Under the
Staggers Act,” Regulation, Winter 2010-2011, pp 23-31.
50
   Association of American Railroads, Railroad Facts, various years.
51
   Intermodal rail is a subset of freight rail service involving the coordinated use of two or more different modes of
transportation. Intermodal rail traffic quadrupled between 1980 and 2007. See Association of American Railroads,
Overview of America’s Freight Railroads, May 2008,
http://www.aar.org/PubCommon/Documents/AboutTheIndustry/Overview.pdf.


                                                           17
U.S. Postal Service Office of Inspector General                                                      August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                 RARC-WP-12-014


helped to increase market share.52

While there were many interrelated elements, it was the strength of productivity gains
that allowed the freight rail industry to recover successfully with many winners and
fewer losers.53 The vast majority of productivity gains were passed to shippers through
lower rates. While regulatory reform may have left some individual shippers worse off,
shippers as a group were big winners. Likewise, the freight railroad industry was a big
winner as it recovered to a healthy financial position. Labor has borne the brunt of
railroad restructuring through large decreases in employment levels. However,
compensation increases offset the employment decreases. So those workers who kept
their employment and the next generation of workers hired have benefited through more
skilled, higher-paying jobs.

Similar to the railroad industry, the Postal Service’s
recovery from its financial crisis will need to come from         The potential for postal
                                                                  productivity gains seems
three interrelated sources: productivity improvements,
                                                                  limited under the Postal
revenue generation, and cost containment. However,                Service’s present service
unlike the railroad industry, the potential for postal            obligations and current
productivity gains seems limited under the Postal                 network structure.
Service’s present service obligations and current network
structure. Postal Service productivity growth historically has been slightly less than that
achieved in the private sector. This does not mean that Postal Service performance has
been poor, as technologies and the ability to innovate vary across industries. The Postal
Service may face some inherent limits in achieving high productivity growth.54 A steady
increase in its network of delivery points coupled with the universal service obligation
                                 (USO) limit density economies. In addition, delivery
  Unlike the rail industry,      operations are inherently labor intensive and therefore
  Postal Service recovery        have little potential for labor-saving technological
  will be to a greater extent    changes. Therefore, while productivity will play an
  a story of shared pain,        important role, the Postal Service’s recovery will most
  rather than shared gain.       likely have to result from revenue generation and cost
                                 containment.55 As large productivity gains are unlikely,
Postal Service recovery will be, to a greater extent, a story of shared pain, rather than
shared gain.

Revenue generation can come from two sources, current products and services and
new products and services. Freight rail benefited from both. For existing products, rail

52
   While prices overall declined, this does not mean that there were not some shippers who experienced price
increases. In addition, it should be noted that prices for freight rail have been increasing recently; however, after
adjusting for inflation, prices on average are still lower than they were before 1980.
53
   In contrast, passenger rail service continues to face losses.
54
   Opportunities for optimization initiatives have been the subject of several U.S. Postal Service Office of Inspector
General reports. See, for example, U.S. Postal Service Office of the Inspector General, A Strategy for a Future Mail
Processing & Transportation Network, Report No. RARC-WP-11-006, July 6, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-11-006.pdf; Retail and Delivery: Decoupling Could Improve Service and
Lower Costs, Report No. RARC-WP-11-009, September 22, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-
009.pdf; and Analyzing the Postal Service’s Retail Network Using an Objective Modeling Approach, Report No.
RARC-WP-10-004, June 14, 2010, http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf.
55
   For the purpose of this paper, cost containment would include actions such as rightsizing/optimizing its networks.


                                                          18
U.S. Postal Service Office of Inspector General                                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                  RARC-WP-12-014


was able to gain market share through increased pricing flexibility and the ability to offer
lower rates due to productivity gains. As mentioned earlier, the rail industry also
benefited from the increased demand for low-sulfur coal, something that was
unforeseen when the Staggers Act was passed.

It is unlikely that the Postal Service will benefit from something akin to the increased
demand for low-sulfur coal. It is difficult to imagine a market disruption that would lead
to a dramatic long-term increase in demand for hard-copy mail, particularly the First-
Class Mail that traditionally bore the bulk of the Postal Service’s institutional costs.
While it is possible that in the future, the Postal Service will offer new ancillary and
nonpostal products with considerable revenues, the Postal Service is unlikely to benefit
from significant new sources of revenue for several years.

As for existing products, the Postal Service may be able      Revenue gains will most
to generate revenue through increased pricing flexibility     likely be dependent on
and pricing innovations.56 However, unlike the rail           moderate, predictable rate
industry, revenue gains will most likely be highly            increases.
dependent on price increases, because the Postal
Service appears to have fewer opportunities for productivity gains relative to rail.57
Moderate, predictable rate increases will most likely be more palatable than a
postponed larger rate increase, which could cause rate shock and could ultimately drive
mailers out of the postal system.

                                    Even with moderate price increases, there are no
     The first and foremost
     element of postal recovery
                                    quick fixes for revenue gains for the Postal Service.
     needs to be cost               Therefore, the first and foremost element of postal
     containment — fixing the       recovery needs to be cost containment, including fixing
     retiree prefunding issues      the retiree prefunding issues. Similar to the rail
     and rightsizing the            industry, cost containment for the Postal Service is
     networks.                      contingent on its ability to rightsize. With the railroads,
                                    rightsizing meant dramatic reductions in labor costs,
consolidation of the industry by mergers, and rationalization of the network by
abandoning and spinning off unprofitable routes to regional and short lines. The
parallels for the Postal Service are reducing employment, consolidating processing
facilities, and potentially reducing the frequency and speed of service. Cost reductions
will fall mostly on labor because the Postal Service is very labor intensive. As with the
railroads, postal restructuring will likely lead to fewer workers, but may result in more
skilled, higher-paying jobs.

Prioritizing rightsizing does not mean that the Postal Service should focus solely on
cutting costs. Instead, rightsizing should be viewed as the first step to financial stability.

56
   Increased use of contract pricing may help both mailers and the Postal Service, particularly where mailers are
willing or able to prepare mailings with lower cost characteristics than mail prepared according to existing standards
for tariff rates.
57
   Currently the Postal Service has some of the lowest postage rates in the world. See U.S. Postal Service Office of
the Inspector General, Postal Service Revenue: Structure Facts and Possibilities, Report No. RARC-WP-012-002,
October 6, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-12-002.pdf.


                                                          19
U.S. Postal Service Office of Inspector General                                                       August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                  RARC-WP-12-014


Rightsizing does not necessarily mean cutting service; it means realigning the network
so that it can match service to current market demands.58 If the Postal Service can find
the appropriate balance of reducing its network while providing adequate service to its
customers, it may be able to pass the cost savings on to its customers through smaller
price increases. This will allow the Postal Service to possibly regain, or at least
maintain, some of its market share.

What is imperative is the speed with which cost      The quicker cost containment
containment and optimization occurs. While the       and optimization are
Postal Service cost containment and optimization     implemented, the quicker
efforts are just beginning, the quicker they can be  stakeholders can begin to share
implemented, the sooner the Postal Service will be   the benefits of a stronger, more
able to begin its financial recovery and the sooner  viable Postal Service.
the resulting cost savings can be used to lessen
the negative impacts on stakeholders. Stakeholders could then begin to share the
benefits of a stronger, more viable Postal Service.


Conclusion
The Postal Service faces the most significant financial and organizational challenges
since the PRA. These challenges fundamentally result from structural changes in
markets for communication and transactions. Permanent market share losses to
electronic and other means of communication have severely reduced mail volumes and
the corresponding revenues, but costs have not decreased commensurately. To bring
the situation into balance, the recovery from this crisis will come from three basic
sources: productivity improvement, revenue management, and cost management.

While there are parallels and lessons to be learned from comparing the rail and postal
industries, the railroad experience does not necessarily provide the blueprint for the
Postal Service recovery. Productivity improvement has been the central story behind
the railroad recovery. In postal restructuring, productivity will play an important but
lesser role. It is not likely that postal productivity gains alone will be sufficient to lead to
a full recovery. Consequently, revenue generation and cost containment will play a
larger role in balancing the profitability equation. Therefore, postal recovery will, to a
greater extent, involve shared pain rather than shared gain.

What is applicable from the railroad experience is the importance of rightsizing. With the
railroads, that meant dramatic reductions in employment, consolidation of the industry
by mergers, and rationalization of the network by abandoning and spinning off
unprofitable routes to the regional and short lines. The parallels for the Postal Service
are reducing employment, consolidation of processing facilities, and reducing the
frequency and speed of service.



58
  Rightsizing is a dynamic process. As in the rail industry, the Postal Service will need to continue to adapt as market
conditions change over time.


                                                          20
U.S. Postal Service Office of Inspector General                             August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                        RARC-WP-12-014


The optimal configuration of postal employees, facilities, and service attributes remains
to be determined. Pursuit of the quantitative answers is imperative, and the direction of
needed postal changes is clear. It is important to recognize that making changes sooner
rather than later will likely reduce the total burden that is to be shared.




                                                      21
U.S. Postal Service Office of Inspector General             August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry        RARC-WP-12-014




                                           Appendices




                                                      22
U.S. Postal Service Office of Inspector General                                                         August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                                    RARC-WP-12-014




Appendix A                  History of the Railroad Industry

General and Regulatory History Prior to the Staggers Act

Since their genesis in the early 1800s, railroads have been central to America’s social
and economic development. The development of the railroads marked the beginnings of
the modern transportation network in the United States. America’s first railroad, the 13-
mile Baltimore and Ohio Railroad, was chartered in 1827 and completed in early 1830.59
By 1850, more than 9,000 miles of railroad were in operation, representing a fairly
complete railroad network.60 Development of the railroads spurred economic growth and
territorial expansion by providing access to previously inaccessible areas and increasing
the mineral, timber, and agricultural products brought to market. Furthermore, the
construction of the railroads increased the demand for coal, steel, and iron production.
Railroads also played a major role in the Civil War.61

By the 1860s the railroads possessed and exercised monopoly power such that “the
first serious manifestations of the monopoly problem thus made their appearance on the
American scene.”62 Captive shippers saw higher rates while the railroads provided
cheaper rates to shippers with transportation alternatives, often by rebating a portion of
the charge. This price discrimination was viewed as unfairly favoring large business to
the disadvantage of small shippers. Also, railroads charged different rates between
certain points regardless of distance. In some cases, higher rates were charged for
shorter distances along the same route.63

Many shippers, particularly farmers, and the general public resented the railroads’
pricing practices. Agrarian pressures, known as the Granger Movement, resulted in
Midwestern states passing legislation to regulate the railroads by establishing maximum
rates and outlawing some forms of price discrimination. Between 1871 and 1874,
Illinois, Iowa, Wisconsin, and Minnesota enacted legislation regulating the railroads.
Between 1875 and 1878, the “Granger laws” were repealed or weakened, but these
states kept some regulatory legislation and by 1890 34 states had passed some railroad
regulation laws.64

Initially, the federal government’s role in the regulation of railroads was limited primarily
to granting land for rights of way. In 1886, an impetus for federal regulation ensued from
a U.S. Supreme Court ruling in Wabash v. Illinois according to which the authority to

59
   Ross M. Robertson, History of the American Economy, p. 148.
60
   Association of American Railroads, “A Short History of U.S. Freight Railroads,” October 2011,
http://www.aar.org/~/media/aar/Background-Papers/A-Short-History-of-US-Freight.ashx.
61
   The North’s victory was due in large part to its well-organized rail operations and the fact that most of the country’s
locomotive and railcar-building plants were in the North. See Association of American Railroads, “A Short History of
U.S. Freight Railroads.”
62
   Ross M. Robertson, History of the American Economy, p. 281.
63
   See, e.g., John F. Stover, American Railroads, pp. 116-117, and Ross M. Robertson, History of the American
Economy, p. 282.
64
   Ross M. Robertson, History of the American Economy, pp. 284-285.


                                                            23
U.S. Postal Service Office of Inspector General                                                    August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                               RARC-WP-12-014



regulate railroads engaged in interstate commerce rested with the federal government
rather than the states.65 A legislative compromise between the Senate and the House
led to the passage of the Interstate Commerce Act of 1887, and consequently, railroads
became the first U.S. major industry to be subject to economic regulation.66 This Act
created the Interstate Commerce Commission (ICC) and imposed various types of
regulations on railroads including maximum and minimum rail rates, and prohibited
pooling, rebates, and long/short haul rate differentials.67

The ICC wanted to establish control over the railroads, but for many years did not
possess the necessary power to do so. In the first decades of its existence, several
Supreme Court decisions were used by the railroads to prevent the ICC's efforts at
regulation and rate reductions from being implemented successfully. As a result, major
legislative efforts were made to increase the ICC’s authority accordingly. The Elkins Act
of 1903, signed by President Theodore Roosevelt, was the first of such legislations to
pass, which increased the restrictions of rebates railroads received.68 This was followed
soon by the Hepburn Act in 1906, which increased the powers of the ICC and allowed it
to set freight rates.69 Finally, in 1910, the Mann-Elkins Act was passed which further
expanded the powers granted to the ICC under the Hepburn Act, and demanded that
railroads’ reasons for any rise in freight rates must be warranted.70 Concerns about
financial weakness in the railroad industry also led to the passage of the Transportation
Act of 1920, which granted powers to the ICC to control entry, regulate construction and
abandonment, and prescribe minimum and maximum rates.71

In the 1930s, most railroads faced financial pressures due to two reasons. The Great
Depression wreaked havoc on the railroads, causing many of them to fall into
receivership or be purchased by stronger companies. Thus, there was a decrease in the
overall level of demand for transportation services provided by railroads. Additionally,
competition from new modes of transportation — automobiles, buses, trucks and
airplanes — prevented the railroads from returning to prosperity. The railroad industry's
"Golden Age" was over.72

World War II-related rail demand traffic gave the railroads a temporary boost, but it was
insufficient to resolve the railroads’ financial difficulties. More bankruptcies, service
abandonments, and deferred maintenance plagued the railroads throughout the 1950s.
Railroad regulation was considered to be a major factor hindering the industry’s ability
to adapt to changing market conditions. Several of the existing regulations that came
under question were:


65
   Wabash, St. L. & P. R. Co. v. Illinois, 118 U. S. 557, 7 Sup. Ct. 4, 30 L. ed. 244 (1886).
66
   Clyde Aitchison, “The Evolution of the Interstate Commerce Act: 1887-1937,” pp. 289, 300 (1936-1937), citing
Wabash, St. L. & P. R. Co. v. Illinois, 118 U. S. 557, 7 Sup. Ct. 4, 30 L. ed. 244 (1886).
67
   Interstate Commerce Act of 1887, ch. 104, 24 Stat. 379, approved 1887-02-04.
68
   The Elkins Act, § 708, 32 Stat. 847 (1903).
69
   The Hepburn Act, 34 Stat. 584 (1906).
70
   The Mann-Elkins Act, § 8, 36 Stat. 539, 547 (1910).
71
   Transportation Act of 1920, Public Law. 66-152, 41 Stat. 456, 1902. (Also known as the Esch–Cummins Act,)
72
   Association of American Railroads, “A Short History of U.S. Freight Railroads.”


                                                         24
U.S. Postal Service Office of Inspector General                                                   August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                              RARC-WP-12-014



        (1) The ICC set maximum and minimum rates for rail shipments which were often
            unrelated to costs or demand. For instance, rates for bulk commodities were
            kept low at the expense of higher rates for many kinds of manufactured goods
            that were traded in smaller quantities. As a result, shippers began to divert
            this higher-rated freight to the highways instead.

        (2) The concept of “open routing” was another issue. Regulation generally kept
            similar rates for routes between two points, even if railroads incurred much
            higher or lower costs to use some routes than others.

        (3) Because regulation made it difficult for railroads to adjust individual rates,
            they typically increased all rates as their costs rose. Since rail rates took into
            account lagged cost patterns, subsequent changes in technology and traffic
            flow that may have significantly altered those cost patterns were often
            ignored.

        (4) Regulation also delayed the widespread use of “unit trains,” which made use
            of highly efficient sets of 50 or more cars to move freight between two points
            (for example, a coal mine and a power plant), because it prevented railroads
            from offering lower rates to shippers who used these trains.73

To deal with these issues, President Eisenhower appointed the Weeks Committee,
whose report in 1955 appeared to set the stage for deregulation. In its preamble, the
report promoted concepts such as a “…free enterprise system of dynamic
competition…” to “encourage and promote full competition between modes of
transportation…” and to “reduce economic regulation of the transportation system to the
minimum consistent with public interest…”74 Three years after the release of the Weeks
Committee report, the Transportation Act of 1958 was passed. This act incorporated
only a few of the recommendations of the Weeks Committee. Although there was a
series of court cases and ICC decisions through the mid-1960s, the regulatory practices
in the transportation industry had not been substantially changed by either the report of
the Weeks Committee or the Transportation Act of 1958.75

The U.S. railroad industry reached its low point in the early 1970s, when it had lost so
much market share to trucking that many companies either were purchased by stronger
ones or simply went bankrupt. The government reacted with the Regional Rail
Reorganization Act (the 3R Act). The purpose of the 3R Act was to reorganize the
numerous bankrupt railroads in the Northeast and Midwest regions into an economically
viable system that could provide adequate and efficient rail service. This led to the



73
   Ibid.
74
   Presidential Advisory Committee on Transport Policy and Organization, Revision of Federal Transportation Policy,
p. 8.
75
   A Study of Competition in the U.S. Freight Railroad Industry and Analysis of Proposals that Might Enhance
Competition, Revised Final Report, prepared by Laurits R. Christensen Associates for the Surface Transportation
Board, November 2009, vol. 1, pp. 2-5 – 2-6.


                                                        25
U.S. Postal Service Office of Inspector General                                         August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                    RARC-WP-12-014



formation of the Consolidated Rail Corporation (Conrail), and the United States Railroad
Administration (USRA) which would fund and oversee Conrail's operations.76

Despite these governmental efforts, continuing financial problems plaguing railroads
began to motivate the serious consideration of rate deregulation. Some of the adverse
developments that formed the main impetus for deregulation were as follows:

         (1) Most major railroads in the Northeast, including the giant Penn Central and
             several major Midwestern railroads, went bankrupt. Bankrupt railroads
             accounted for more than 21 percent of the nation’s rail mileage.

         (2) Between 1970 and 1979, the rail industry’s return on investment never
             exceeded 2.9 percent and averaged only 2 percent.

         (3) By 1978, the railroad share of intercity freight had fallen to 35 percent, down
             from 75 percent in the 1920s.

         (4) Railroads lacked the funds to properly maintain their tracks. By 1976, more
             than 47,000 miles of track had to be operated at reduced speeds because of
             unsafe conditions. Deferred maintenance, namely maintenance that needed
             to be done but which railroads could not afford, was in the billions of dollars.77

The first significant reduction in federal regulation of railroads since the enactment of
the Interstate Commerce Act in 1887 was realized in the passage of the Railroad
Revitalization and Regulatory Reform Act of 1976 (the 4R Act). Congress undertook
regulatory reform in the 4R Act to stop the wave of bankruptcies in the industry and to
improve the railroads’ opportunities to survive as private companies.78

The next major event that further removed regulatory restraints on the railroad industry
was the passage of the Staggers Rail Act of 1980. The main provisions of the Staggers
Act were as follows:

         (1) Railroads were allowed to base their rates on market demand.

         (2) Railroads and shippers could enter into confidential contracts.

         (3) Procedures for abandoning or selling unneeded rail lines were streamlined.

         (4) The need for railroads to earn adequate revenues to support their operations
             was explicitly recognized.79

The Staggers Act was followed by the abolishment of the Interstate Commerce
Commission (ICC) effective January 1, 1996. The Surface Transportation Board (STB)

76
   Congressional Budget Office, Economic Viability of Conrail, August 1986, pp. 4-5.
77
   Association of American Railroads, “A Short History of U.S. Freight Railroads.”
78
   Congressional Budget Office, Economic Viability of Conrail, August 1986, p. 5.
79
   Association of American Railroads “A Short History of US Freight Railroads.”


                                                         26
U.S. Postal Service Office of Inspector General                                                   August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                              RARC-WP-12-014



was established as the ICC’s successor. The STB is an economic regulatory agency
that Congress charges with the fundamental missions of resolving railroad rate and
service disputes and reviewing proposed railroad mergers. The STB maintains a focus
on promoting a regulatory structure that:

        (1) Helps promote revenue adequacy (i.e., that the return on capital invested in
            railroads is at least as great as that earned on capital invested in other
            industries).

        (2) Allows flexibility in setting of rail rates in response to differing circumstances.

        (3) Protects shippers from the exercise of market power by railroads. 80

America’s Freight Railroads since the Staggers Act

The U.S. railroad industry has been regaining its financial health since the passage of
the Staggers Rail Act of 1980. Large improvements have been made on several fronts
— productivity and costs, prices, and railroad financial stability.

The industry has witnessed a dramatic increase in productivity since the passage of the
Staggers Act, which was the result of two combining factors namely, high output growth
and reductions in inputs. These productivity gains have further been translated into cost
gains for the industry. Productivity growth averaged 3.7 percent over the period 1980 to
2008 which was almost 3.5 times the productivity growth of the overall private business
sector during the same period. The period of highest growth was between 1980 and
1996 (4.8 percent), but the rate of growth thereafter slowed down to about 2.3 percent
per year. Much of the slowdown in productivity growth was attributed to an increase in
materials input and a slower reduction in labor inputs, along with the diminishing role of
economies of density.81

Not only has the industry realized productivity gains, but also after the Staggers Act
gave the railroads the ability to negotiate prices with shippers, railroad rates have
dropped significantly. Data depicts that inflation-adjusted rail rates for freight services
are down by about 40 percent since 1980. Breaking this down by commodity type, coal
shippers enjoyed the greatest rate reductions from around 1993 to 2004, when this
pattern began to reverse as real rates started to trend upwards.82

The financial state of the railroad industry has also seen big improvements in the past
30 years. The return on net investment, which had been falling for decades, rose to 4.4
percent in the 1980s, 7 percent in the 1990s, and 8.2 percent over the period 2000 to


80
   A Study of Competition in the U.S. Freight Railroad Industry and Analysis of Proposals that Might Enhance
Competition, Revised Final Report, prepared by Laurits R. Christensen Associates for the Surface Transportation
Board, November 2009, vol. 1, pp. 2-5 – 2-6.
81
   B. Kelly Eakin, A. Thomas Bozzo, Mark E. Meitzen, and Philip E. Schoech, “Railroad Performance Under the
Staggers Act.”
82
   Ibid.


                                                        27
U.S. Postal Service Office of Inspector General                                  August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                             RARC-WP-12-014



2010. Since 2004, railroads have also been steadily lowering their operating ratios.83
Overall, as a result of these changes, as well as increases in highway congestion and
fuel costs, the railroad industry is no longer at a severe competitive disadvantage to
other transportation modes, as it was when the Staggers Act was passed in 1980.




83
     Association of American Railroads, “Railroad Ten-Year Trends 2001-2010.”


                                                         28
U.S. Postal Service Office of Inspector General                                                August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                           RARC-WP-12-014




Appendix B                Common Carrier and Universal Service Obligations

Obligations to serve customers take two basic forms. The first is a common carrier
obligation (CCO), found in transportation industries, where firms provide service under
their posted terms to all potential customers. The second form is a universal service
obligation (USO), such as that of the Postal Service, where firms must provide a
specified minimal level of service to all customer groups, at similar prices.

Common carrier and universal service obligations are often used in network regulation
networks to ensure efficiency. Common carrier or universal service obligations ensure
that all customers are served. Recipients benefit from receiving service, when they
might have not received service absent the USO. Recipients of mail also benefit from
the USO as senders finance the USO (senders pay the postage, not the recipients).
Senders benefit from the existence of a larger network. Universal service and common
carrier obligations can also arise from equity considerations, where the availability of
service is considered a fairness issue.84

Class I Railroads’ Obligation to Serve

The U.S. freight railroad industry has a CCO. However, there is a lack of clarity over
what this CCO entails. For example, a critical ongoing debate centers on railroads’
obligation to carry hazardous materials. Shippers claim that the CCO requires railroads
to transport such materials at “reasonable” rates. Railroads contend that the liability of
transporting these materials is so high that it places them at extreme risk. The railroads
believe they should be able to charge rates to cover such risks and/or federal law
should be changed to indemnify them from these risks.85

Prior to the establishment of Amtrak in 1971, the Class I railroads also provided
passenger service. While not a USO per se, railroads were obliged to provide
passenger service to communities they served. This service was not ubiquitous, but
once established it was viewed as an obligation of the railroad (particularly at the
individual state level) and was difficult to abandon.86

Class I Railroad Passenger Service in the pre-Amtrak Era

The obligation to provide passenger service was a key factor in the Class I railroads’
deteriorating financial condition through the 1960s. Two events led to a relaxation and
elimination of this obligation to serve: (1) the passage of the Transportation Act of 1958,

84
   A Study of Competition in the U.S. Freight Railroad Industry and Analysis of Proposals that Might Enhance
Competition, pp. 3-8.
85
   For example, see Surface Transportation Board Ex Parte 677, Common Carrier Obligations of Railroads-
Transportation of Hazardous Materials, June 4, 2008.
86
   Thomas H. Trimarco and John H. Hines Jr., “The Railroad Passenger Problem—At the Crossroads,” Boston
College Law Review, Volume 6, Issue 2, 1965, p. 306 and Presidential Advisory Committee on Transport Policy and
Organization, Revision of Federal Transportation Policy, p. 18.


                                                       29
U.S. Postal Service Office of Inspector General                                                   August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                              RARC-WP-12-014



which provided a greater ability to drop money-losing passenger services; and (2) the
transfer of passenger service to Amtrak in 1971.

In 1955, a presidential advisory committee (the “Weeks Committee”) reported that
railroads suffered for many years from unprofitable passenger service operations and
that “the railroad shippers of the country are being required to subsidize in substantial
and growing amounts those who benefit from the utilization of passenger train
service.”87 At the time of the Weeks Committee report, Class I railroad passenger
service operations had incurred deficits every year since 1930 (with the exception of the
war years of 1942-1945) with the largest deficit occurring in 1953 at $750 million.88
These deficits were primarily due to declining demand for rail passenger service
because of the increased availability and use of auto and air travel. The growth in these
alternative modes of travel was substantially due to increasing government funding of
highway and airport construction.89

Despite falling demand and increasing operating deficits, railroads found it very difficult
to get permission to abandon unprofitable passenger services. A major reason for this
difficulty was that, prior to the 1958 amendment of the Interstate Commerce Act;
individual states had a significant role in granting service abandonments. The Interstate
Commerce Commission (ICC) could authorize the abandonment of all operations over a
given line, but had no power to authorize the discontinuance of particular trains or
services over a given line while leaving the operation of other trains and services on that
line. This severely limited the ICC’s ability to grant abandonment of unprofitable
services. In these instances, “the sole forums to which [railroads] could proceed for
consideration of their discontinuance requests were the state regulatory commissions
which by and large were unsympathetic to their plight.”90 The Weeks Committee noted
that, despite the decline in demand for rail passenger service and its effect on railroad
profitability, there was reluctance by state authorities to abandon service because of
opposition to service curtailments from local interests and railroad employees.91

The Weeks Committee recommended that the Interstate Commerce Act be amended to
provide the ICC with greater oversight powers over railroad operations, so that the ICC
could order the discontinuance of service, irrespective of any state law or power of any
state authority, where the ICC “finds that continuance of unprofitable facilities or
services imposes an undue burden upon interstate commerce, and that adequate
service by other forms of transportation are available to meet the public need.”92

In 1958, Congress amended the Interstate Commerce Act to give the ICC greater ability
to grant service abandonments:

87
   Presidential Advisory Committee on Transport Policy and Organization, Revision of Federal Transportation Policy,
p. 18.
88
   Ibid., p. 18.
89
   Thomas H. Trimarco and John H. Hines Jr., “The Railroad Passenger Problem—At the Crossroads,” p. 303.
90
   Ibid., p. 306.
91
   Presidential Advisory Committee on Transport Policy and Organization, Revision of Federal Transportation Policy,
p. 18.
92
   Ibid., p. 19.


                                                        30
U.S. Postal Service Office of Inspector General                                                 August 13, 2012
Parallel Tracks? Lessons from the Railroad Industry                                            RARC-WP-12-014



           Under Section 13a, in order for the Commissioner to grant or acquiesce in
           any discontinuance, he must first find that the service in question is not
           required by public convenience and necessity and second, that the
           continuation of the service will unduly burden interstate commerce. …
           Under paragraph (1), a carrier may discontinue an interstate train or
           service of its own accord, subject only to the possible determination by the
           ICC that such discontinuance is unwarranted, whereas under paragraph
           (2), the Commission may take action concerning discontinuance of an
           intrastate service only after the appropriate state commission has had the
           opportunity to act and has refused to authorize the discontinuance.93

While this helped alleviate the drag of passenger service deficits on railroads’ financial
conditions, the Class I railroads were still obligated to provide passenger service (albeit
on a reduced scale) until the passage of the Rail Passenger Service Act of 1970, which
created Amtrak. The Class I railroads were relieved of their passenger service
obligations when Amtrak began operations on May 1, 1971.

Summary

Increasing competition from alternative modes of transportation was at the core of the
increasing deficits the Class I railroads incurred from their passenger operations. The
very same forces that caused the downfall in passenger service were important for
eventually relaxing/relieving railroads from this obligation: namely the recognition by
policymakers that consumers had viable options to rail passenger service. However, it
took almost 30 years of passenger service operating deficits (1930-1958) before the
ability to relax passenger service obligations was granted, and 40 years of passenger
service operating deficits (1930-1970) before the Class I railroads were relieved of their
money-losing passenger service obligations.




93
     Thomas H. Trimarco and John H. Hines Jr., “The Railroad Passenger Problem—At the Crossroads,” pp. 307-308.


                                                        31
